ES, IG-98-019, Aeronautics Program Grant Financial Transactions
AERONAUTICS PROGRAM GRANT
FINANCIAL TRANSACTIONS
IG-98-019
Executive Summary
Background
The NASA Headquarters Office of Aeronautics and Space Transportation
Technology (OASTT) expressed concerns to us that grant reports from
educational institutions may be late, inaccurate, and incomplete.  Other
concerns included untimely grant recording procedures.
A June 1996 NASA report, "The Management and Liquidation of Budget
Authority," stated that NASA's budget through the end of 1995 showed a
trend of increasing unliquidated budget authority.  NASA's unliquidated
budget authority balance increased 25 percent from September 1993 to
September 1995.  The 1996 report partly attributes this increase to untimely
grant reports and closeouts, inaccurate and untimely cost accrual data for
grants, and delayed disbursements.  Our review addressed these issues.
Related OIG reports and reviews are shown in Appendix 4.
From fiscal year (FY) 1995 to 1997, NASA grant obligations exceeded $1.2
billion, while OASTT obligations exceeded $124 million.  We reviewed 60
grants with total obligations exceeding $14 million.  Our review focused on
FY's 1996 and 1997 recording and reporting practices.  Grantees report costs
and disbursements quarterly on Standard Form (SF) 272, the Federal Cash
Transaction Report.  NASA uses the SF 272 reports, as well as other sources,
to enter accounting information into the Agency's financial records.
Financial procedures require NASA to record an "accrual" for
unreimbursed costs.
Objectives
Our overall objective was to evaluate procedures used to process and manage
grant financial transactions.  Our specific goals were to answer the
following:
Do Headquarters and the aeronautics Centers' financial management
offices record grant financial transactions both accurately and in a
timely manner?
Are grantee SF 272 reports accurate, and do grantees submit the
reports in a timely manner?
During our audit, we became aware of delays in closing out grants.
Therefore, we also evaluated aspects of the close-out process.  We provide
additional information on objectives, scope, and methodology in Appendix 1.
Results of Audit
Grant problems described in the June 1996 NASA report still exist.  Our
review showed OASTT grant costs are too often inaccurate.  Also, grantees
often submit quarterly SF 272 reports late, FY 1997 costs appear overstated,
and the number of grants awaiting closeout has increased.  Some of our
issues extend beyond OASTT grants.  For example, almost 50 percent of
quarterly SF 272 reports on grants were late.  Many of NASA's grantees
report financial data for all their grants on a single, quarterly SF 272
report.  Thus, late reports affect the timely recording of data for numerous
grants (not only OASTT grants).  We also found Headquarters had not always
accrued costs each month as required for more than 2,000 grants.  Grant
management requires improvement in the following five areas.
Langley Research Center (LaRC) grant costs have not always been
accurate and current.  LaRC sometimes did not make needed cost
adjustments or adjust costs accurately.  As a result, costs were not
always accurate and reliable.  If costs are overstated, the
availability of funding for other programs is adversely impacted.  This
could result in needed work being canceled or delayed.  Understated
costs increase cost carryover, which can impact program operations and
future budgets.
Headquarters grant financial data was not always recorded in a
timely manner.  Staffing was inadequate to record costs each month,
and other recording delays occurred that were avoidable.  Thus, costs
and disbursements are often understated; and uncosted obligations, a
component of unliquidated budget authority, are inaccurate and
overstated.
Grantee reports at the Centers we reviewed were often late and
sometimes incomplete or inaccurate, thereby delaying the recording
process.  This affected the accuracy and timeliness of grant/program
costs and disbursements.  Management could be using inaccurate data to
make program or funding decisions.
The FY 1997 average monthly costs for aeronautics grants exceeded
average monthly disbursements by 43 percent, while the NASA standard is
5 percent.  Overstated costs inappropriately increase accounts payable
and unliquidated budget authority at a time when the Agency is trying
to reduce these amounts.
The grant close-out process needs improvements.  NASA has delegated
close-out responsibility for most of its grants to the Office of Naval
Research (ONR).  However, the close-out process has been ineffective,
and the number of grants awaiting closeout continues to increase.  This
presents administrative and financial burdens to NASA.  For example,
the difference between obligated grant funds and possible disbursements
arising from grants awaiting closeout contributes to increases in
unliquidated budget authority.
LaRC and
Headquarters Have Taken Some Corrective Actions
During our audit, LaRC and Headquarters took or promised to take remedial
actions that should improve system processes, data accuracy, and close-out
procedures.  For example, LaRC documented automated system procedures and
corrected automated system problems that occurred due to a contractual
change that brought in a new contractor and modified the scope of work.
Management also told us that grant file documentation will be improved.
Furthermore, Headquarters and Center staff  responsible for grant closeout
met with officials of the ONR at Headquarters in 1997 to discuss delays in
closing grants.  ONR management committed to improving communication and
coordination processes.  We commend management's efforts.
Recommendations
Our report contains nine recommendations requiring cooperation and corrective
actions by several Headquarters and Center organizations.
Management's Response
Management concurred with seven of the nine recommendations, and planned
actions are responsive to the intent of our recommendations.  Although
management concurred with the first element of recommendation 9, the planned
action was not responsive.  With respect to management's nonconcurrences
with recommendation 4 and the second element of recommendation 9, we
reaffirm these recommendations. We have requested additional management
comments where further action is needed or nonconcurrence exists.
Management's response is shown in Appendix 5.